      United States Department of Agriculture




Office of Inspector General
Management and Security Over
USDA's Universal
Telecommunications Network




                                       88501-0002-12
                                       July 2014
                                     Management and Security Over USDA’s Universal 
                                            Telecommunications Network 
                                                                      
                                                    Audit Report 88501-0002-12 

What Were OIG’s

Objectives

We conducted an audit of the
UTN to obtain reasonable
assurance that the system was
configured, managed, and
secured in accordance with       OIG examined whether the USDA Universal 
applicable guidance. We also     Telecommunications Network (UTN) was 
reviewed the task order and      properly configured, managed, and secured, 
billing to determine whether
Government funding had been      and if its task order with AT&T was properly 
properly managed, expended,      implemented. 
and monitored.
                                 What OIG Found
What OIG Reviewed

We reviewed selected UTN         In 2010, USDA signed a multi-year task order with AT&T to provide
controls and related policies    the Universal Telecommunications Network (UTN), the data network
and procedures to determine if   backbone for its customers and agencies. We found that USDA is not
they were suitable and           adequately overseeing UTN security and performance. The Office of
conformed to NIST                the Chief Information Officer (OCIO) staff concentrated on the
requirements and whether         operational aspects of the UTN, without placing adequate emphasis
billing for the services         on security and task order management, and the contracting officer
provided was in accordance       (CO) from the Office of Procurement and Property Management
with Government                  (OPPM) was not familiar with the task order. We also found that
Accountability Office internal   AT&T had not yet installed required network security features. This
control standards.               occurred because OCIO lacked sufficient controls to ensure that all
                                 task order provisions were met—for instance, the responsible CO did
What OIG Recommends              not have a copy of the task order 6 months after it was assigned to
                                 him. Past OIG audit recommendations were also not adequately
OCIO and OPPM should             addressed. As a result, USDA faces an increased risk of sensitive
strengthen their internal        information being lost, disclosed, altered, or destroyed, and is paying
controls over task order         for task order services that are not being provided.
administration, take steps to
enhance communication with
AT&T, ensure AT&T meets          OCIO did not perform an adequate reconciliation of UTN charges,
task order obligations, and      and reconciliation procedures were inadequate and outdated. As a
develop new procedures to        result, an AT&T audit requested by OCIO found it had both
address security weaknesses.     overbilled and under-billed USDA for an aggregate total of more than
The agencies should also seek    $1.9 million. Even after becoming aware of this, OCIO did not fix the
reimbursement for the            discrepancies and AT&T continued to overbill almost $90,000 in
amounts AT&T overbilled.         subsequent months. OCIO and OPPM have agreed to all of the
                                 findings and recommendations, and we have reached management
                                 decision on 19 of the 21 recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          July 17, 2014

AUDIT
NUMBER:        88501-0002-12

TO:            Cheryl L. Cook
               Chief Information Officer
               Office of the Chief Information Officer
               ATTN: Christopher Wren

               Lisa A. Wilusz
               Director
               Office of Procurement and Property Management
               ATTN: Lennetta Elias

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Management and Security Over USDA’s Universal Telecommunications Network


This report presents the results of the subject audit. Your written response, dated May 21, 2014,
is included in its entirety at the end of the report. Excerpts from your response and the Office of
Inspector General’s (OIG) position are incorporated in the relevant sections of the report. Based
on your May 21, 2014, response, and subsequent correspondence received on June 23, 2014 and
June 30, 2014, we accept management decision on Recommendations 1-17, 19 and 21.
Management decision has not been reached on Recommendation 18 and 20. To reach
management decision on these recommendations, please see the relevant OIG Position section in
the audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective actions taken or planned, and timeframes for implementing the
recommendation for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
 Table of Contents
Background and Objectives ....................................................................................1
Section 1: UTN Management .................................................................................3
Finding 1: OCIO Could Better Optimize its Oversight of UTN .........................3
         Recommendation 1 ........................................................................................ 6
         Recommendation 2 ........................................................................................ 7
         Recommendation 3 ........................................................................................ 7
         Recommendation 4 ........................................................................................ 8
         Recommendation 5 ........................................................................................ 8
         Recommendation 6 ........................................................................................ 9
         Recommendation 7 ...................................................................................... 10
         Recommendation 8 ...................................................................................... 10
         Recommendation 9 ...................................................................................... 10
Finding 2: OCIO and OPPM Need to Ensure all Task Order Requirements
Are Met ...................................................................................................................12
         Recommendation 10 .................................................................................... 13
         Recommendation 11 .................................................................................... 14
         Recommendation 12 .................................................................................... 14
         Recommendation 13 .................................................................................... 15
Section 2: Billing Process .....................................................................................16
Finding 3: OCIO Needs to Reconcile UTN Expenditures More Effectively ....16
         Recommendation 14 .................................................................................... 18
         Recommendation 15 .................................................................................... 18
         Recommendation 16 .................................................................................... 19
         Recommendation 17 .................................................................................... 19
         Recommendation 18 .................................................................................... 20
         Recommendation 19 .................................................................................... 20
         Recommendation 20 .................................................................................... 20
         Recommendation 21 .................................................................................... 21
Scope and Methodology.........................................................................................22
Abbreviations .........................................................................................................23
EXHIBIT A—Summary of Monetary Results ....................................................24
EXHIBIT B—Prior Audit Recommendations ....................................................25
Agency's Response .................................................................................................27
Background and Objectives 
Background
The U.S. General Services Administration (GSA) entered into the Networx contract with various
service providers1 to deliver telecommunication services to all Federal agencies that wanted to
participate. In July 2010, USDA awarded a task order using the GSA Networx contract with
AT&T for Department-specific services, having a total value of $350.9 million.2 USDA’s Office
of Procurement and Property Management (OPPM) is responsible for oversight of the
Telecommunications (Telecomm) task order.

The Office of the Chief Information Officer’s (OCIO) Enterprise Network Service’s (ENS)
mission is to plan, implement, manage, and maintain USDA’s enterprise telecommunications
program. Its mission statement includes a commitment to deliver streamlined, secure, and
supportable products and services that are specifically tailored to its users. The Telecomm task
order terms state that ENS is responsible for administering and managing the Telecomm task
order and monitoring USDA telecommunications security, operations, and governance. ENS
performs the contracting officer’s representative (COR) duties for the Telecomm task order.

USDA’s Universal Telecommunications Network (UTN) is the data network backbone for
USDA customers and agencies. The UTN is comprised of two trusted internet connections
(TIC),3 located in Washington, D.C., and San Francisco, California, and 16 customer edge router
(CER)4 locations strategically placed throughout the country. Each TIC provides internet
connectivity for roughly half of the Department and has the capability to provide connectivity to
the entire Department during a failure of one TIC. The TIC initiative allowed USDA to reduce
and consolidate external access points across the Department, manage the security requirements,
and establish a compliance program to monitor Department and agency adherence to TIC policy.
The CER locations further extend the TIC benefits and security to local USDA users located
throughout the country by consolidating network connectivity for multiple agencies.

The Telecomm task order allows USDA agencies to procure additional telecommunication
services directly from AT&T, such as additional internal communication equipment and lines,
needed to conduct business. USDA has the option of having these services managed by AT&T
or un-managed. If un-managed, the agency is responsible for the administration of equipment,


1
  The service providers under the Networx contract are: AT&T, CenturyLink Inc., Level 3 Communications, Sprint
Corporation, and Verizon Communications.
2
  The original Networx contract term lasted from May 2007-May 2011, with three additional 2-year extension
options for a total of 10 years. USDA’s Telecomm task order was signed in 2010 and will last for the remaining
7 years or until the $350.9 million is expended.
3
  The purpose of the TIC initiative, as outlined in OMB Memorandum M-08-05, dated November 20, 2007, is to
optimize and standardize the security of individual external network connections currently in use by Federal
agencies, including connections to the Internet. The initiative will improve the Federal Government's security
posture and incident response capability through the reduction and consolidation of external connections and
provide enhanced monitoring and situational awareness of external network connections.
4
  The CER is a router located on USDA’s premises that provides a connection between USDA and AT&T’s
networks. In USDA’s instance it is between multiple agencies and the TIC.

                                                                       AUDIT REPORT 88501-0002-12                1
services, and reconciliation of the bills. The UTN portion of the Telecomm task order is
managed services provided by AT&T and overseen by ENS. Telecommunication services
procured by USDA’s individual agencies were not included in the scope of this audit.

Billing is handled through AT&T’s Business Direct, which was created as a secure web-based
portal providing access to a suite of ordering, billing, and maintenance tools. AT&T Business
Direct is designed to give Government customers 24x7 access to and control over their Networx
services and, in USDA’s case, control over its Telecomm task order from any internet-enabled
personal computer. A standardized flow for each type of billing process should ensure that task
order activities and data exchanges are handled reliably for all service types and are in full
compliance with Government requirements for direct and centralized billing.

In August 2006, OIG conducted an audit of the Management and Security Over the
U.S. Department of Agriculture Universal Telecommunications Network.5 The report identified
weaknesses in OCIO’s ability to effectively manage and secure this Department-critical general
support system. OCIO has taken some actions to address the weaknesses we identified in 2006.

Objectives

We conducted an audit of the UTN to obtain reasonable assurance that the system was
configured, managed, and ultimately secured in accordance with Departmental, Office of
Management and Budget (OMB), and National Institute of Standards and Technology (NIST)
guidance. Additionally, we performed a review of the Telecomm task order and billing to
determine whether Government funding had been properly managed, expended, and monitored
in accordance with the Government Accountability Office’s Standards for Internal Control.




5
  OIG identified several UTN security and operational issues in 88501-0006-FM, Management and Security Over
the U.S. Department of Agriculture Universal Telecommunications Network (August 2006).

2    AUDIT REPORT 88501-0002-12
Section 1:  UTN Management 
Finding 1: OCIO Could Better Optimize its Oversight of UTN
We found that OCIO is not adequately overseeing the security and performance of the UTN.
This occurred because OCIO concentrated on the operational aspects of the UTN, without
adequate emphasis on security and management. OCIO has not developed and implemented the
necessary policies and procedures to ensure inconsistencies and vulnerabilities on USDA’s
network are identified and remediated timely; contingency plans are adequate; equipment
inventories are maintained; or that AT&T met all Telecomm task order requirements, such as all
contractor employees having the necessary security clearances. In addition, OCIO has not
effectively implemented all prior UTN audit recommendations from OIG’s August 2006 audit
(see Exhibit B). As a result, USDA's telecommunications system faces an increased risk of
sensitive information being lost, disclosed, altered, or destroyed.

USDA’s Telecomm task order stipulates that OCIO has primary oversight and coordinates with
the contractor for installation, implementation, monitoring, management, problem resolution,
maintenance, and repair of the UTN. The Federal Information Security Management Act
(FISMA) emphasizes the need for each agency to develop, document, and implement an
enterprise-wide program to provide information security for all its information systems,
including those systems provided or managed by a contractor. However, the COR noted “a lack
of communications by and with AT&T regarding security services or requirements, poor
programmatic to track the progress of the security services, and the need to send a clarification
memo to AT&T to strengthen both.”

For instance, although the Information Systems Security Program Manager (ISSPM) created
eight plans of action and milestones (POA&Ms) to address some known problems, over
6 months later, seven POA&Ms were not approved by managers and were not being worked. As
of June 2014, all eight POA&Ms have been approved, five are currently in progress and being
addressed, and three are delayed. This occurred because security was not properly integrated
into the UTN operational processes.

In addition, when the UTN’s service was updated in 2011, OCIO did not adequately implement
all previous OIG recommendations when establishing its new Telecomm task order for the UTN
services. While OCIO did substantially improve its firewalls in response to a 2006 OIG audit
recommendation, it did not appropriately ensure that all of the necessary security measures were
included in the current Telecomm task order for the UTN. Specifically, OCIO has not ensured
that the firewall rule sets at the two TIC locations were consistent and it has not effectively
implemented failover testing procedures.6




6
  Failover testing procedures outline the steps needed to continue communication when a failure of a device or
telecommunication line occurs. The task order requires AT&T to test these procedures annually.

                                                                          AUDIT REPORT 88501-0002-12             3
During this audit we identified the following issues:

         System Settings—OCIO did not periodically review or synchronize the firewalls and
         website filters at the two TIC locations.7 In addition, there were conflicting website filter
         rules at USDA’s TIC sites and some rules were written incorrectly. For instance, one
         request for a filter exception was meant to allow a single user to access a certain website;
         however, we found the exception was written to allow the entire Department to access the
         site. ENS stated that it reviews and optimizes the firewall rules and website filters when
         it updates the settings. However, staff did not perform formal, comprehensive reviews of
         the website filters, and did not have an automated method to reconcile the voluminous
         firewall rules to ensure they were synchronized. These settings must remain
         synchronized for normal operations and disaster recovery to ensure security measures are
         applied consistently across the entire Department and not just for users at one TIC.
         Without adequate firewall rules and website filters, USDA personnel could potentially
         download malicious software.8

         Scans and Vulnerabilities—USDA’s Telecomm task order requires AT&T to perform
         monthly security scans to identify vulnerabilities on all devices, and notify USDA as
         soon as it becomes aware of an issue. We found that AT&T was not scanning 40 of
         229 devices on a monthly basis. AT&T did not have these 40 devices on the inventory it
         was using to scan. The inventory was outdated and AT&T was not performing discovery
         scans that would have created an up-to-date listing. Discovery scans will identify all
         active devices on a network, even those not on an inventory. Instead, AT&T based its
         vulnerability scans on an outdated list of devices, which did not include these 40 devices.

         In addition, we noted 21 vulnerabilities were not remediated in a timely manner, 18 of
         which were overdue by at least 60 days. We found three vulnerabilities were missing
         patches that AT&T should have applied and had documented these patches as issues
         needing resolution. Without continuous monitoring of vulnerability scans and patch
         management, the network could be compromised with malware in the event of an attack.

         Governmentwide Security Standards—NIST provides mandatory minimum physical
         and environmental security standards for Government systems. We visited the 2 TIC
         sites and 6 of 16 CER sites and found a total of 32 instances where standards were not
         met. For example, we found both TIC sites and three CER sites either did not keep
         physical visitor logs or review them on a regular basis. Given that sites sometimes have
         different security needs, OCIO should evaluate each site and determine a set of minimum
         physical and environmental controls based on cost and risk.




7
  Firewall rules block or allow specific traffic passing through from one side of the router to the other. Inbound
rules restrict access by outsiders to private resources, selectively allowing only specific outside users to access
specific resources. Outbound rules determine what outside resources local users can have access to. Website filters
block access to certain websites based on USDA requests.
8
  Malicious software, or malware, refers to software designed specifically to damage or disrupt a system, such as a
virus or a Trojan horse.

4     AUDIT REPORT 88501-0002-12
         Contingency Planning—Although required by the Telecomm task order, we found
         AT&T did not test its contingency plan for the UTN in 2012, and that 13 of
         23 contingency plan requirements remained unfulfilled. Since 2011 ENS has not
         conducted a test to verify that sufficient capacity exists at each TIC location. In the event
         that one TIC fails, the other site must handle all USDA traffic and must be sized
         adequately during peak usage. ENS considers failing the machines over during off-peak
         maintenance periods as sufficient testing; however, this does not meet NIST requirements
         for Federal agencies to test and exercise contingency plans for information systems, to
         review the contingency plan test/exercise results, and initiate corrective actions.9

         In two actual failovers that occurred during normal working hours in 2013, the bandwidth
         capacity was sufficient to avoid a total shutdown failure. However, peak internet traffic
         during the failovers reached approximately 98 percent and 92 percent of the available
         bandwidth—coming so close to capacity risks performance degradation and information
         loss. These high utilization rates occurred because the existing communication lines had
         not been sized to ensure optimum bandwidth; since these outages, OCIO stated it has
         increased the bandwidth of the communications lines. By not meeting the key
         requirements of contingency and failover testing, USDA’s network is at risk of failure in
         the event of a disaster.

         Equipment Tracking—AT&T does not maintain an accurate inventory of the UTN
         devices. An accurate and up-to-date inventory, controlled by active monitoring and
         configuration management, can reduce the chance of attackers finding unauthorized and
         unprotected systems to exploit. Also, old, unused equipment that has been replaced by
         the new TIC equipment still contains sensitive USDA data because it has not been
         scrubbed.

         Security Clearances—We found that OCIO was not adequately monitoring task order
         required clearances. The Telecomm task order required that AT&T personnel having
         access to USDA data have, at a minimum, a secret level clearance with a background
         investigation. However, we identified 167 out of 370 contractors working on the UTN
         who did not have a secret level security clearance, as required. As a result of our review,
         OCIO and AT&T modified the Telecomm task order in November 2013 to require a
         Public Trust Level 6 background investigation, rather than a secret level security
         clearance.10 OCIO needs to determine whether all AT&T contractors accessing UTN
         systems have successfully passed the required background investigation.

         Contractor Access—OCIO did not track contractors supporting the UTN. We found
         that neither AT&T nor OCIO could provide OIG an accurate listing of all AT&T
         personnel working on the UTN. USDA did not know which AT&T contractors had been
         given access to USDA systems and the level of access each contractor had been provided.
         As a result, sensitive data and systems could be at risk if accessed by unscrupulous

9
  NIST Special Publication (SP) 800-53 Revision 3, Recommended Security Controls for Federal Information
Systems and Organizations, August 2009.
10
   Public Trust is a designation for positions which require a high degree of integrity with public confidence in the
individual occupying the position. Level 6 means “high-risk.”

                                                                            AUDIT REPORT 88501-0002-12                  5
       persons. OCIO needs to work with AT&T to develop a process so that OCIO always has
       an up-to-date list of AT&T personnel supporting the UTN.

Despite OCIO being aware of some of the issues described above, it did not take sufficient
actions to address them. ENS' ISSPM had created eight POA&Ms to address various network
security issues we found in this audit. Yet when we began our audit, seven of the eight open
plans were not approved by management, and one was being actively worked. OCIO has since
approved all eight plans, five of which are progressing, while three are delayed. As noted earlier,
this occurred because of the emphasis on operations over security. NIST SP 800-53 requires that
organizations approve configuration-controlled changes to the system, with explicit
consideration for security impact analyses, and that the organization analyzes changes to the
information system to determine potential security impacts prior to change implementation.

In May 2013, the Contracting Officer (CO) for the Telecomm task order sent a letter noting some
communication problems between AT&T and OCIO, stating that both parties needed to ensure
they have appropriate guidance and direction through approved channels. Later, in July 2013,
OCIO brought the issues in our audit to the attention of AT&T management, who said they are
“committed to supporting USDA’s desire to resolve issues and strengthen network service
delivery.”

While meeting with AT&T and approving POA&Ms are positive steps, we believe that OCIO
needs to take additional actions to more effectively address security and management issues,
including developing and implementing new security procedures and improving its
communications with AT&T.

Recommendation 1
OCIO needs to ensure the ISSPM is integrated into all aspects of the UTN project and that all
security decisions are documented.

Agency Response

In the audit report response, dated May 21, 2014, OCIO ENS accepted this recommendation
and stated that ENS will complete a project to ensure that the ISSPM is integrated into all
aspects of the UTN with the following milestones:

    ENS will establish a policy to define the ISSPM role within the UTN change
    management process, related projects and POA&M management, and ensure all
    security decisions are documented. Target Completion Date: July 30, 2014.

    ENS COR will prepare language changes and request the OPPM Procurement
    Operations Division ( POD) CO modify the AT&T Networx contract to establish a
    project plan that will incorporate the ISSPM into all phases of UTN management
    requiring ISSPM review and/or approval. Target Completion Date: July 30, 2014.



6    AUDIT REPORT 88501-0002-12
   ENS will oversee the completion of the implementation of a Change Management
   Procedure consistent with the new ISSPM policy. Target Completion Date:
   September 30, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 2
OCIO needs to develop, document, and implement procedures to ensure that a security impact
analysis is performed on all changes to the UTN services prior to implementation.

Agency Response

OCIO ENS accepts this recommendation. ENS will complete a project to ensure a security
impact analysis is performed on all changes to the UTN with the following milestones:

   ENS will modify the Change Management Procedure for the UTN to integrate a security
   impact analysis. Target Completion Date: July 30, 2014.

   The ENS COR will prepare language changes and request the OPPM POD CO modify the
   AT&T Networx contract to incorporate the revised change management procedure in the
   contract deliverables. Target Completion Date: September 30, 2014.

OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 3

OCIO needs to develop and implement procedures to synchronize the firewall rule sets and
website filters so that consistency is maintained at the two TIC locations. Review the rule sets
and filters on a routine basis, at least annually, and automate the procedures for better continuous
monitoring.

Agency Response

OCIO ENS accepts this recommendation. ENS will complete a project to address the
recommendations regarding the accuracy of the security policies and ongoing maintenance
with the following milestones:

   ENS will implement a Security Policy Verification procedure and a URL [Uniform Resource
   Locator] Filter Exception procedure to ensure security policies are consistent across the

                                                               AUDIT REPORT 88501-0002-12          7
    UTN, and continuous monitoring in place that will review rule sets and filters at least
    annually to ensure all security policies remain consistent and relevant to the USDA mission.
    Target Completion Date: November 30, 2014.

    ENS will recertify all existing URL filtering exceptions requested by the agencies to date.
    Target Completion Date: April 15, 2015.

OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 4
OCIO needs to develop and implement controls, including discovery scans, to ensure all network
devices are scanned on a monthly basis. In addition, develop and implement a process to timely
remediate vulnerabilities and apply software patches according to Departmental guidance.

Agency Response
OCIO ENS accepts this recommendation. ENS will complete a project to ensure adequate
security controls are in place regarding discovery and vulnerability scans, including remediation,
for the UTN with the following milestones:

    ENS will establish a Security Discovery, Scanning, and Remediation Procedure to address
    all processes mentioned in the OIG recommendation. Target Completion Date:
    July 30, 2014.

    The ENS COR will prepare language changes and request the OPPM POD CO to modify
    the AT&T Networx contract to incorporate the Security Discovery, Scanning, and
    Remediation procedure as part of the contract performance. Target Completion Date:
    October 30, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 5
OCIO needs to develop and implement the minimum physical and environmental controls
required for each UTN site based on the security risk and priority of the site.




8    AUDIT REPORT 88501-0002-12
Agency Response

OCIO ENS accepts this recommendation. ENS will complete a project to ensure UTN sites meet
the minimum physical and environment controls with the following milestones:

   ENS will evaluate and select one of two courses of action to address the recommendation.
   OCIO management will approve either the replacement of the current Internet Service with
   an existing MTIPS [Managed Trusted Internet Protocol Service] service that meets all
   recommendations, or to bring the current Internet Service in compliance with the contract.
   Target Completion Date: December 30, 2014.

   The ENS COR will prepare language changes and request the OPPM POD CO to modify the
   AT&T Networx contract to request a technical solution for the course of action selected.
   ENS will complete all acquisition and contracting activities necessary to fund and initiate the
   plan. Target Completion Date: July 30, 2015.

   ENS will evaluate the proposed technical solution and the ENS COR will work with the
   OPPM POD Contracting Officer to negotiate the award of the final technical solution.
   Target Completion Date: December 30, 2015.

   ENS will oversee the completion of construction and development of the final technical
   solution. Target Completion Date: June 30, 2016.

   ENS will complete Agency transition to the final technical solution. Target Completion
   Date: January 30, 2017.

OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 6

OCIO needs to develop and implement procedures to perform disaster recovery/failover tests, at
least annually.

Agency Response

OCIO ENS accepts this recommendation. ENS has completed a disaster recovery test of the TIC
portals and will continue to do so annually. ENS will provide supporting artifacts to OIG to
demonstrate completion of the disaster recovery test and provide updated procedure
documentation to ensure the annual completion of the testing. Completion Date:
March 15, 2014.



                                                              AUDIT REPORT 88501-0002-12         9
OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 7
OCIO needs to develop and implement oversight procedures for inventory management.

Agency Response

OCIO ENS accepts this recommendation. ENS will establish a procedure for oversight of UTN
inventory managed by contractors. Completion Date: October 31, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 8
OCIO needs to develop and implement a plan to remove and purge unused equipment from the
UTN infrastructure.

Agency Response

OCIO ENS accepts this recommendation. ENS has completed the removal and purge of unused
equipment within the UTN TIC infrastructure. ENS will provide supporting artifacts to OIG to
demonstrate completion. Completion Date: December 19, 2013.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 9
OCIO and OPPM need to develop and implement procedures to ensure all personnel working on
the Telecomm task order are identified and have the required background investigation.

Agency Response
In the audit report response, dated May 21, 2014, and a subsequent correspondence on June 23,
2014 OCIO ENS and OPPM POD stated that they accept this recommendation. ENS will
recommend to the OPPM POD CO to implement a project that ensures all personnel working
on the UTN task order are identified and have completed all required background checks with
the following milestones:

10    AUDIT REPORT 88501-0002-12
   ENS COR will issue a request to the AT&T contract authority for a current listing of all
   AT&T personnel assigned to the USDA AT&T Networx task order, and their respective
   clearance level(s) with a due date of July 31, 2014. Completion Date: June 30, 2014.

   ENS will establish a UTN Contractor Investigation procedure with AT&T. Completion
   Date: December 30, 2014.

   ENS will complete the identification and investigation of all contractor staff working under
   the telecom task order. Completion Date: April 15, 2015.

OIG Position
We accept OCIO and OPPM’s management decision for this recommendation.




                                                            AUDIT REPORT 88501-0002-12            11
Finding 2: OCIO and OPPM Need to Ensure all Task Order Requirements
Are Met
We found network security features required by the Telecomm task order that AT&T had not
installed in the 3 years since the Telecomm task order was signed. Specifically, some required
network features were not complete, and security and data loss prevention measures were not
fully implemented. This occurred because the previous CO and COR lacked the necessary
controls to ensure that all security provisions required by the Telecomm task order were met.
Neither the previous COR and CO nor the current CO had a methodology for monitoring
AT&T's compliance with the Telecomm task order. In addition, both the current COR and CO
were newly assigned to the Telecomm task order and the CO was unaware of some of the
requirements. The CO stated that he did not have a copy of the Telecomm task order, even after
being assigned to it for 6 months. The CO stated that his Division was short-staffed and he had
not yet had time to address the Telecomm task order.

As a result of inadequate oversight, we found that USDA is paying for UTN services that are not
being provided. USDA might be missing cost saving opportunities if the CO finds that task
order relief is appropriate in these situations. Failure to implement required security measures
increases the risk that sensitive USDA information could be compromised. OPPM needs to
develop and implement procedures for reassigning contracts and task orders to COs to ensure
they are provided relevant materials, understand their responsibilities, and monitor the contractor
performance.

The Federal Acquisition Regulation states that COs are responsible for ensuring performance of
all necessary actions for effective contracting and compliance with the terms of the Telecomm
task order. Additionally, the Telecomm task order requires OCIO to take specific measures to
ensure the UTN is secure. The particular issues we identified are detailed below:

         Security Functions—The Telecomm task order requires that a virtual private network
         (VPN) be implemented for external connections, such as teleworking from home, as well
         as an intrusion prevention system (IPS)11 that blocks harmful activity.12 However, we
         found that the implemented VPN was not being utilized by all USDA agencies. Also, the
         IPS was not enabled. Without these systems in place, unauthorized access to USDA
         systems and potentially harmful activity could occur without being identified and
         blocked.

         Data Loss Prevention—Despite being included in the Telecomm task order as a
         requirement three times, AT&T did not install or implement a data loss prevention (DLP)
         solution for the UTN.13 Also, OCIO was not aware that a DLP solution was required by
         the Telecomm task order until OIG brought it to their attention. When OCIO asked

11
   An IPS monitors network traffic and provides a preemptive approach to network security used to identify potential
threats and respond to them proactively.
12
   A VPN is a network that uses a public telecommunication infrastructure, such as the internet, to provide remote
offices or individual users with secure access to their organization's network.
13
   Data loss prevention is a strategy for making sure that users do not send sensitive or critical information outside of
their network.

12     AUDIT REPORT 88501-0002-12
       AT&T about this issue, AT&T was reluctant to provide the services. When OIG asked
       why, OCIO stated that there were two causes; the first was “a combination of general
       Networx contract capability limitations and installation delays,” and the second was a
       dispute with AT&T over the capabilities of the DLP solution. This is still awaiting
       resolution. Without a functioning DLP solution, sensitive data is at risk for exposure
       outside of USDA.

       Two-Factor Authentication—Departmental Regulations (DR) state that all methods of
       remote access to USDA networks must use a two-factor authentication mechanism,
       which typically involves a physical token, such as a card, and something that is
       memorized, such as a security code. In signing the Telecomm task order, AT&T agreed
       to provide and support two-factor authentication access to the UTN network devices.
       However, we found that AT&T network administrators were not using two-factor
       authentication when managing the UTN network devices, even though it is a task order
       requirement. ENS stated that this has been an ongoing issue, and though its security
       officer has been working to implement a two-factor solution, AT&T’s project
       management office has not yet addressed this security vulnerability. Without two-factor
       authentication, there is an increased risk of unauthorized access to the UTN and its
       components.

While OCIO has taken actions on some of the above issues, it has not effectively or timely
implemented the terms of the Telecomm task order, as these vulnerabilities still exist. For
example, OCIO created a POA&M in July 2012 to address the lack of two-factor authentication
for accessing the network devices. However, work on the plan of action was still in progress, as
AT&T had not yet fully implemented a two-factor solution. Once they became aware that the
DLP was a Telecomm task order requirement, OCIO officials began working on a resolution via
a formal dispute with AT&T, after which they hope to get a data loss prevention solution
implemented.

OCIO, the CO, and the COR need to improve their internal processes for overseeing task orders
and enforcing the task order requirements. OCIO needs to work with AT&T to strengthen the
UTN’s security measures to meet DR and task order terms. The CO and COR should be
included on all communications with AT&T regarding changes/disputes/lack of performance. In
addition, USDA is paying for Telecomm task order services that have not been provided. USDA
should research and, if applicable, seek reimbursement from AT&T for required services USDA
is paying for, but that AT&T has not provided. The CO must ensure that AT&T meets its
contractual obligations within establish timeframes, as specified in the task order; if not met,
penalties should be assessed.

Recommendation 10
OPPM needs to develop and implement procedures for reassigning contracts and task orders to
its COs to ensure they are provided relevant materials, understand their responsibilities, and
monitor contractor performance.



                                                            AUDIT REPORT 88501-0002-12           13
Agency Response

In the audit report response, dated May 21, 2014, OPPM POD stated it accepts this
recommendation. POD will establish an Acquisition Operating Procedure to address the
reassignment of solicitations and contracts. Completion Date: July 31, 2014.

OIG Position
We accept OPPM’s management decision for this recommendation.

Recommendation 11

The CO needs to inform all parties that correspondence or discussions regarding task order
changes/disputes/lack of performance are the sole responsibility of the CO.

Agency Response
OPPM POD accepts this recommendation. The CO assigned to the contract will issue a letter
to the COR and the Contractor reiterating that the CO has the sole authority to obligate the
Government by awarding and modifying contracts. Completion Date: April 30, 2014.

OIG Position

We accept OPPM’s management decision for this recommendation.

Recommendation 12
OPPM and OCIO need to research and, if applicable, seek reimbursement for unimplemented
contract services USDA is paying for, but that AT&T has not provided.

Agency Response

OPPM POD and OCIO ENS accept this recommendation. ENS will work with POD to
research and if applicable, seek reimbursements for unimplemented contract services.
Completion Dates: September 30, 2014.

OIG Position

We accept OPPM and OCIO’s management decision for this recommendation.




14    AUDIT REPORT 88501-0002-12
Recommendation 13

OPPM should require AT&T to meet its contractual obligations and establish timeframes for
AT&T to be in compliance with the terms of the Telecomm task order or take appropriate action
if requirements are not met in a timely manner.

Agency Response

OPPM POD accepts this recommendation. The CO and COR will complete a contract
compliance review and identify those contract requirements that are currently not being
performed. The CO will notify the Contractor of any non-compliance and request a corrective
action plan. Completion Date: October 31, 2014.

OIG Position

We accept OPPM’s management decision for this recommendation.




                                                          AUDIT REPORT 88501-0002-12          15
Section 2:  Billing Process 
Finding 3: OCIO Needs to Reconcile UTN Expenditures More Effectively
OCIO management does not ensure that its telecommunications office performs an adequate
billing reconciliation of UTN charges on a monthly basis. While the office does have procedures
in place for reconciliation, we found that the procedures were inadequate and outdated. Also, the
telecommunication mission area control officer (TMACO) in the Telecom Management &
Governance Division of the ENS did not follow procedures for billing disputes and did not
adequately perform billing reconciliations, as required in the Telecomm task order and by
DR 3300-020.14 This occurred because the Telecomm Management & Governance Division
procedures did not specify how to perform a detailed reconciliation. The TMACO was unable to
clearly explain how to perform monthly billing reconciliations and other related issues. As a
result, when AT&T completed an audit in 2012, it found USDA had been both overbilled and
under-billed for an aggregate total of more than $1.9 million. We analyzed AT&T invoices
totaling $16,848,283 from May15 of 2011 to March of 2013. As a result, we noted that even after
OCIO became aware of the problem, it did not fix the billing discrepancies and AT&T continued
to overbill almost $90,000 in subsequent months. We also noted that OCIO did not follow
the task order guidelines for filing billing disputes, and did not seek appropriate reimbursement.

DR 3300-020 specifies that the TMACO will establish a process to review usage and billing of
telecommunication resources to ensure compliance with Departmental and other policies and
guidelines. Additionally, the regulations state that agency TMACOs will have a broad
understanding of the policies, principles, and financial management processes for
telecommunications, as defined by USDA. The GSA Networx contract states that formal billing
disputes should be filed for any questionable billing errors.

        Overcharges—At the direction of OCIO, AT&T conducted an internal billing audit in
        2012 and discovered that it had both overbilled and under-billed USDA, for an aggregate
        total of over $1.9 million in overcharges. The billing errors included services
        with recurring monthly charges that should have been one-time only charges. AT&T
        returned the money when the audit was concluded. After learning of the overcharges, we
        analyzed OCIO’s billing processes and subsequent months’ bills. We found that OCIO
        was still not performing a sufficient and effective reconciliation. The same recurring
        charges continued 2 months after the internal audit was issued, resulting in overbilled
        amounts totaling $89,719.58. OCIO was unaware of these overcharges; as of July 2013,
        OCIO had not made a formal dispute or reimbursement request. The TMACO stated
        that, due to a lack of staff resources, he does not have time to do an extensive billing
        review every month.



14
   DR 3300-020, Telecommunications Mission and Control Officer (TMACO)-Roles and Responsibilities,
August 30, 2010.
15
   A charge in March of 2011 was the very first expenditure made against the Networx task order on the first invoice
of May 1, 2011, for USDA OCIO.


16     AUDIT REPORT 88501-0002-12
        We also found that OCIO did not follow the terms of the Telecomm task order and did
        not file a billing dispute for the $1.9 million through the formal task order management
        system. This occurred because ENS and AT&T circumvented the CO and Telecomm
        task order terms and agreed to an informal billing inquiry, instead of utilizing Business
        Direct, which is the formal process for resolving billing issues in the Telecomm task
        order.16 We believe that, despite already receiving reimbursement, OCIO should file a
        formal dispute in Business Direct, which serves as the designated tracking system for all
        disputes and transition credits.17 Without having access to proper data on such a large
        overcharge, GSA may not be able to gauge the effectiveness of AT&T’s billing process.

        Credit Reimbursements—When there is a UTN outage, USDA is eligible for a credit
        for the time services were unavailable. When we examined two outages18 that occurred
        in January and May of 2013, we calculated that USDA was due a total reimbursement
        of $42,968. However, we found the TMACO did not know about the outages and had
        not submitted credit requests. After we identified this issue, OCIO took action to collect
        these credits.

        OCIO claimed it had requested reimbursements for two system outages that occurred in
        March 2012, with credits totaling $19,335, and received the requested funds.
        However, OIG could not verify that the correct dollar amounts had been reimbursed, as
        the Business Direct system did not show the details of the reimbursement. This occurred
        because AT&T provides payments for a variety of services and equipment, which
        sometimes include reimbursements, as lump sums within Business Direct. Therefore,
        both entities were unable to provide specific documentation for the $19,335, which did
        not allow us to confirm that the proper amount had been reimbursed.

The TMACO and another IT specialist are overseen by the Director of a three-person group.
The TMACO is responsible for performing billing reconciliation, but does not have any financial
analysis or other billing-related job duties in his position description. When we discussed these
issues with OCIO, the Director stated that the office did not perform reconciliations and, instead,
used estimates to track monthly charges. We found that the estimates prepared did not match the
actual charges over the year-long period we reviewed. OCIO acknowledged that this approach
was a problem, sought clarification from AT&T on the recent overcharges, and reported that it is
now implementing a Telecommunications Expense Management System that will aid in the
reconciliation process.

Without adequate oversight and a detailed reconciliation process in place, OCIO cannot ensure
expenditures are correct and properly managed. OCIO has the fiscal responsibility to ensure that
monthly bills are properly reviewed, and USDA is not unfairly charged for services that are not
being provided. In particular, the TMACO’s roles and responsibilities should be further clarified

16
   Business Direct is a secure, web-based portal providing access to ordering, billing, and maintenance tools.
17
   Transition Credit Reimbursement is defined as the reimbursement of certain Agency-incurred expenses associated
with the transition from FTS2001 to the Networx contract.
18
   An outage is a telecommunication service condition wherein a user is deprived of service due to a malfunction of
the contractor’s communication system.

                                                                        AUDIT REPORT 88501-0002-12              17
to ensure that the person in the position is fully capable of performing billing reconciliation or
the TMACO’s position description needs to be modified at ENS. It is imperative that someone
performs the billing reconciliation.

Recommendation 14
OCIO needs to update the TMACO’s job description in accordance with Departmental
Regulations. The position’s responsibilities and required knowledge should include an
understanding of financial management and billing processes. In addition, ensure the TMACO
has the training necessary, so that adequate billing reconciliations can be performed.

Agency Response

In the audit response, dated May 21, 2014, OCIO ENS stated that it accepts this
recommendation. ENS will update the TMACO job description in accordance with
Departmental Regulations. ENS will ensure the TMACO receives appropriate training to
support performance of assigned financial management and billing reconciliation duties. ENS
will provide artifacts to support completion of this recommendation. Completion Date:
December 31, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 15
OCIO needs to establish procedures requiring that the UTN bills be reviewed and reconciled
monthly. A manager needs to review the monthly billing reconciliations for accuracy, and then
initial and date them to indicate that the bills are accurate and reviewed timely.

Agency Response
OCIO ENS accepts this recommendation. Currently:

     ENS performs a manual reconciliation of monthly billing including validation of charges
     against ATQs [Acquisition to Quotes] to ensure correctness of new services ordered and
     received. A manager will review the monthly billing reconciliation for accuracy, sign and
     date to signify acceptance, and record results in a tracking log. The documented procedures
     will be updated to reflect the revised process. Completion Date: June 30, 2014.

     ENS has contracted with a third-party vendor to design and develop the
     Telecommunications Expense Management (TEM) system to automate expense
     management processes for USDA. Phase I includes reporting and an executive dashboard
     that support manual billing reconciliation; Phase II will include automated validation of
     ATQs against billed services to streamline the reconciliation process. When the TEM

18     AUDIT REPORT 88501-0002-12
   system is deployed, the documented procedures will be updated to reflect the new
   processes. Management review and approval will continue to be a part of the monthly
   reconciliation procedure for the new TEM system. Completion Dates: Phase I, July
   31 [, 2014 and]/ Phase II, December 31, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.

Recommendation 16
OCIO needs to require that all billing disputes are submitted in accordance with the terms of the
Networx contract.

Agency Response
OCIO ENS accepts this recommendation. ENS will implement an internal policy directing that
all disputes be filed in the Business Direct portal. ENS will provide artifacts to support
completion of this recommendation. Completion Date: June 30, 2014.

OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 17
OCIO needs to submit a billing dispute to Business Direct for the $1,916,667.88 in billing errors
that were discovered by AT&T in 2012, so that this transaction is tracked.

Agency Response

OCIO ENS accepts this recommendation. In 2012, ENS submitted a request for AT&T to
investigate the overbilling of DMRC [Device Monthly Recurring Charge] CLINs [Contract
Line Item Numbers] at multiple locations; since the request was submitted by email, a single
dispute ticket was not generated. When adjustments were processed (September 1, 2012 bill),
approximately 950 dispute numbers were generated for the individual CLINs/locations. ENS
will provide list of the dispute numbers related to the $1,916,667.88 net adjustment to support
completion of this recommendation. Completion Date: June 30, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.




                                                             AUDIT REPORT 88501-0002-12           19
Recommendation 18
OCIO needs to confirm reimbursements were received for the $89,719.58 in overcharges.

Agency Response
OCIO ENS accepts this recommendation. ENS confirmed receipt of adjustments for $89,719.58
overcharges and will provide artifacts to support completion of this recommendation. The
documented billing review process includes tracking of billing disputes from filing in Business
Direct through verification of adjustment as part of the monthly billing reconciliation and
management validation. Completion Date: June 30, 2014.

OIG Position
We are unable to reach management decision based on OCIO’s response. In order to reach
management decision per DR 1720-1, OCIO needs to provide evidence that receivables for the
overcharged amounts were established and a bill of collection was issued to the contractor.

Recommendation 19
OCIO needs to develop and implement a periodic supervisory review process to monitor system
outages and ensure that any appropriate credit requests are submitted to AT&T. Requested
credits should be tracked to determine whether they have been reimbursed.

Agency Response

OCIO ENS accepts this recommendation. ENS will provide artifacts to demonstrate the
established process for reviewing monthly AT&T SLA [Service Level Agreement] reports.
The documented SLA review process includes tracking of SLA Credit requests from filing
through verification of adjustments as part of the monthly billing reconciliation and
management validation. Completion Date: June 30, 2014.

OIG Position
We accept OCIO’s management decision for this recommendation.

Recommendation 20
OCIO needs to confirm reimbursements were received for the $42,968 system outage credits
identified.

Agency Response

OCIO ENS accepts this recommendation. ENS confirmed receipt of all eligible credit
adjustments and will provide artifacts to demonstrate completion of this recommendation. The

20    AUDIT REPORT 88501-0002-12
documented SLA review process includes tracking of SLA Credit requests from filing through
verification of adjustments as part of the monthly billing reconciliation and management
validation. Completion Date: June 30, 2014.

OIG Position
We are unable to reach management decision based on OCIO’s response. In order to reach
management decision per DR 1720-1, OCIO needs to provide evidence that receivables for the
overcharged amounts were established and a bill of collection was issued to the contractor.


Recommendation 21
OCIO needs to request that AT&T provide a detailed statement that includes information for
each of the individual credits in any lump sum payment.


Agency Response
OCIO ENS accepts this recommendation. ENS will provide sample reports from Business
Direct that show a detailed break-down of the credit adjustments, along with their associated
CLINs and billing periods, as artifacts to support completion. The documented billing review
and SLA review processes includes tracking of billing disputes and SLA credit requests from
filing through verification of adjustments as part of the monthly billing reconciliation and
management validation. Completion Date: June 30, 2014.

OIG Position

We accept OCIO’s management decision for this recommendation.




                                                            AUDIT REPORT 88501-0002-12          21
Scope and Methodology 
Our audit reviewed selected UTN control objectives specified in the Telecomm task order and
OCIO’s related policies and procedures, to determine if they were suitably designed and if they
conformed to the minimum security requirements mandated by NIST SP 800-53 Revision 3,
Recommended Security Controls for Federal Information Systems and Organizations. Audit
fieldwork ran from December 2012 through August 2013. The audit scope focused on OCIO’s
management and security over USDA’s UTN and OPPM’s management of the task order.
Because OCIO procured AT&T’s services, our audit scope needed to include OPPM’s
administration of the task order. We obtained invoices and financial documents from the
beginning of the Telecomm task order in July 2010 through February 2013. Site visits were
made to Ft. Collins, Colorado; San Francisco, California; and Washington, D.C.; TIC locations
and selected CER locations (Albany, California; Beltsville, Maryland; Denver, Colorado; Kansas
City, Missouri; and multiple locations in Washington, D.C.).

We tested Departmental records and third-party task orders, interviewed OCIO, OPPM, and
AT&T personnel, and used computer-aided auditing techniques. We performed tests of the
UTN’s controls to determine if they were operating with sufficient effectiveness to provide
reasonable assurance that specified control objectives were achieved. AT&T and OCIO
provided all invoices for the period of the Telecomm task order. We also analyzed the task order
and related expenditures. AT&T provided a list of invoices from May of 2011 to March of 2013
totaling $16,848,283 for the Telecomm task order. We performed analysis of all invoices to
identify if funds were properly managed, expended, and monitored.

As specified in the findings of this report, we used various DRs and manuals related to
IT security and Governmentwide publications, such as Federal Information Processing
Standards, NIST, and OMB Circulars, as guidelines for this review. As deemed necessary,
various software products were used to evaluate IT security.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




22    AUDIT REPORT 88501-0002-12
Abbreviations 

ATQ ............................ Acquistion to Quote
CER ............................. Customer Edge Router
CLIN ........................... Contract Line Item Numbers
CO ............................... Contracting Officer
COR ............................ Contracting Officer’s Representative
DLP ............................. Data Loss Prevention
DMRC ......................... Device Monthly Recurring Charge
DR ............................... Departmental Regulations
ENS ............................. Enterprise Network Services
FISMA ........................ Federal Information Security Management Act
GSA............................. General Services Administration
GAO ............................ Government Accountability Office
IPS ............................... Intrusion Prevention System
ISSPM ......................... Information Systems Security Program Manager
MTIPS ......................... Managed Trusted Internet Protocol Service
NIST ............................ National Institute of Standards and Technology
OCFO .......................... Office of the Chief Financial Officer
OCIO ........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPPM.......................... Office of Procurement and Property Management
POA&M ...................... Plan of Action and Milestones
POD............................. Procurement Operations Division
SLA ............................. Service Level Agreement
SP ................................ Special Publication
Telecomm ................... Telecommunications
TIC .............................. Trusted Internet Connection
TMACO ...................... Telecommunications Mission Area Control Officer
URL............................. Uniform Resource Locator
USDA.......................... Department of Agriculture
UTN ............................ Universal Telecommunications Network
VPN............................. Virtual Private Network




                                                                 AUDIT REPORT 88501-0002-12   23
EXHIBIT A—Summary of Monetary Results 

Exhibit A summarizes the monetary results for our audit report by finding and recommendation
number.

Finding       Recommendation           Description             Amount          Category
Number
     3              18         AT&T had overbilled             $89,719       Questioned
                               USDA. The billing errors                     Cost, Recovery
                               included services with                       Recommended
                               recurring monthly charges
                               that should have been one-
                               time charges.
     3              20         USDA did not submit credit      $42,968       Questioned
                               requests for two outages                     Cost, Recovery
                               that occurred in January and                 Recommended
                               May of 2013.
 Total                                                         $132,687




24       AUDIT REPORT 88501-0002-12
EXHIBIT B—Prior Audit Recommendations 

Followup Review of Recommendations from OIG Audit Report 88501-0006-FM,
August 2006
Recommendation19                                               Conclusion
3. Establish a plan, with specific completion                  OCIO implemented security measures in
dates, when security measures under UTN will                   accordance with the previous statement of
be designed and implemented effectively.                       work. However, new requirements have
                                                               identified the following security measures
                                                               that still need to be implemented: VPN, IPS,
                                                               DLP, and Two-factor Authentication.
4. Ensure that the gateway firewalls deny all                  OCIO did implement the Deny All Rule.
traffic that is not specifically allowed, and                  However, OCIO did not periodically review
establish controls to ensure that firewall rule                or synchronize the firewalls and website
changes are authorized and adequately                          filters at the two TIC locations, so they are
controlled.                                                    still not adequately controlled.
5. Establish a plan, with specific completion                  Implemented—During two failovers in
dates, when the UTN gateways will be designed                  2013, the bandwidth capacity was sufficient
to handle the USDA traffic with adequate                       to avoid a total shutdown. However, peak
failover capabilities.                                         Internet traffic during the failovers reached
                                                               approximately 98 percent and 92 percent of
                                                               the available bandwidth. During the course
                                                               of this audit OCIO stated it has increased
                                                               the bandwidth of the communications lines.




19
     Recommendation 1 and 2 in the prior audit was not covered because they were outside the scope of this audit.

                                                                          AUDIT REPORT 88501-0002-12                25
26   AUDIT REPORT 88501-0002-12
Agency's Response 




                USDA’S
   OFFICE OF THE CHIEF INFORMATION
               OFFICER
                  and
     OFFICE OF PROCUREMENT AND
        PROPERTY MANAGEMENT
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 88501-0002-12   27
                                       United States Department of Agriculture



Departmental          TO:               Gil H. Harden
Management
                                        Assistant Inspector General for Audit
Office of the Chief                     Office of Inspector General
Information Officer

1400 Independence     FROM:             Cheryl L. Cook /s/        May 21,2014
Avenue S.W.                             Chief Information Officer
Washington, DC
20250                                   Office of the Chief Information Officer

                                        Lisa M. Wilusz /s/
                                        Director
                                        Office of Procurement and Property Management

                       SUBJECT:         “Management and Security over USDA’s Universal
                                        Telecommunications Network” OIG Report # 88501-0002-12


                      The Office of the Chief Information Officer (OCIO) and the Office of Procurement
                      and Property Management (OPPM) submits the following response to your
                      memorandum of February 12, 2014 to provide the status of our progress in carrying
                      out Recommendations 1 through 21.
                      Recommendation 1
                      OCIO needs to ensure the Information Systems Security Program Manager (ISSPM)
                      is integrated into all aspects of the UTN project and that all security decisions are
                      documented.
                      Agency Response: OCIO Enterprise Network Services (ENS) accepts this
                      recommendation. ENS will complete a project to ensure the ISSPM is integrated into
                      all aspects of the UTN with the following milestones:
                            ENS will establish a policy to define the ISSPM role within the UTN change
                             management process, related projects and POA&M management, and ensure all
                             security decisions are documented.
                             Target Completion Date: July 30, 2014
                            ENS Contracting Officer Representative (COR) will prepare language changes
                             and request the OPPM POD Contracting Officer (CO) modify the AT&T
                             Networx contract to establish a project plan that will incorporate the ISSPM into
                             all phases of UTN management requiring ISSPM review and/or approval.
                             Target Completion Date: July 30, 2014
                            ENS will oversee the completion of the implementation of a Change
                             Management Procedure consistent with the new ISSPM policy.
                             Target Completion Date: September 30, 2014



                      AN EQUAL OPPORTUNITY EMPLOYER
Recommendation 2
OCIO needs to develop, document, and implement procedures to ensure that a
security impact analysis is performed on all changes and to the Universal
Telecommunications Network (UTN) services prior to implementation.
Agency Response: OCIO ENS accepts this recommendation. ENS will complete a
project to ensure a security impact analysis is performed on all changes to the UTN
with the following milestones:
      ENS will modify the Change Management Procedure for the UTN to integrate a
       security impact analysis.
       Target Completion Date: July 30, 2014
      The ENS COR will prepare language changes and request the OPPM POD CO
       modify the AT&T Networx contract to incorporate the revised change
       management procedure in the contract deliverables.
       Target Completion Date: September 30, 2014


Recommendation 3
OCIO needs to develop and implement procedures to synchronize the firewall rule
sets and website filters so that consistency is maintained at the two trusted internet
connections (TIC) locations. Review the rule sets and filters, on a routine basis, at
least annually, and automate the procedures for better continuous monitoring.
Agency Response: OCIO ENS accepts this recommendation. ENS will complete a
project to address the recommendations regarding the accuracy of the security
policies and ongoing maintenance with the following milestones:
      ENS will implement a Security Policy Verification procedure and a URL Filter
       Exception procedure to ensure security policies are consistent across the UTN,
       and continuous monitoring in place that will review rule sets and filters at least
       annually to ensure all security policies remain consistent and relevant to the
       USDA mission.
       Target Completion Date: November 30, 2014
      ENS will recertify all existing URL filtering exceptions requested by the
       Agencies to date.
       Target Completion Date: April 15, 2015


Recommendation 4
OCIO needs to develop and implement controls, including discovery scans, to ensure
all network devices are scanned on a monthly basis. In addition, develop and




AN EQUAL OPPORTUNITY EMPLOYER
implement a process to timely remediate vulnerabilities and apply software patches
according to Departmental guidance.
Agency Response: OCIO ENS accepts this recommendation. ENS will complete a
project to ensure adequate security controls are in place regarding discovery and
vulnerability scans, including remediation, for the UTN with the following
milestones:
      ENS will establish a Security Discovery, Scanning, and Remediation Procedure
       to address all processes mentioned in the OIG recommendation.
       Target Completion Date: July 30, 2014
       The ENS COR will prepare language changes and request the OPPM POD CO
       to modify the AT&T Networx contract to incorporate the Security Discovery,
       Scanning, and Remediation procedure as part of the contract performance.
       Target Completion Date: October 30, 2014


Recommendation 5
OCIO needs to develop and implement the minimum physical and environmental
controls required for each UTN site based upon the security risk and priority of the
site.
Agency Response: OCIO ENS accepts this recommendation. ENS will complete a
project to ensure UTN sites meet the minimum physical and environment controls
with the following milestones:
      ENS will evaluate and select one of two courses of action to address the
       recommendation. OCIO management will approve either the replacement of the
       current Internet Service with an existing MTIPS service that meets all
       recommendations, or to bring the current Internet Service in compliance with
       the contract.
       Target Completion Date: December 30, 2014
      The ENS COR will prepare language changes and request the OPPM POD CO
       to modify the AT&T Networx contract to request a technical solution for the
       course of action selected. ENS will complete all acquisition and contracting
       activities necessary to fund and initiate the plan.
       Target Completion Date: July 30, 2015
      ENS will evaluate the proposed technical solution and the ENS COR will work
       with the OPPM POD Contracting Officer to negotiate the award of the final
       technical solution.
       Target Completion Date: December 30, 2015
      ENS will oversee the completion of construction and development of the final
       technical solution.
       Target Completion Date: June 30, 2016
      ENS will complete Agency transition to the final technical solution.
       Target Completion Date: January 30, 2017




AN EQUAL OPPORTUNITY EMPLOYER
Recommendation 6
OCIO needs to develop and implement procedures to perform disaster
recovery/failover tests, at least annually.
Agency Response: OCIO ENS accepts this recommendation. ENS has completed a
disaster recovery test of the TIC portals and will continue to do so annually. ENS
will provide supporting artifacts to OIG to demonstrate completion of the disaster
recovery test and provide updated procedure documentation to ensure the annual
completion of the testing.
Completion Date: March 15, 2014


Recommendation 7
OCIO needs to develop and implement oversight procedures for inventory
management.
Agency Response: OCIO ENS accepts this recommendation. ENS will establish a
procedure for oversight of UTN inventory managed by contractors.
Target Completion Date: October 31, 2014


Recommendation 8
OCIO needs to develop and implement a plan to remove and purge unused equipment
from the UTN infrastructure.
Agency Response: OCIO ENS accepts this recommendation. ENS has completed
the removal and purge of unused equipment within the UTN TIC infrastructure. ENS
will provide supporting artifacts to OIG to demonstrate completion.
Completion Date: December 19, 2013


Recommendation 9
OCIO and OPPM need to develop and implement procedures to ensure all personnel
working on the Telecomm task order are identified and have the required background
investigation.
Agency Response: OCIO ENS and OPPM POD accept this recommendation. ENS
will recommend to the OPPM POD Contracting Officer to implement a project that
ensures all personnel working on the UTN task order are identified and have
completed all required background checks with the following milestones:
      ENS COR will prepare language changes and request the OPPM POD CO
       modify the AT&T Networx contract to establish a UTN Contractor
       Investigation procedure with AT&T.
       Target Completion Date: December 30, 2014




AN EQUAL OPPORTUNITY EMPLOYER
      ENS will complete the identification and investigation of all contractor staff
       working under the telecom task order.
       Target Completion Date: April 15, 2015


Recommendation 10
OPPM needs to develop and implement procedures for re-assigning contracts and
task orders to contracting officers (CO) to ensure each is provided relevant materials,
understands their responsibilities, and monitors the contractor’s performance.
Agency Response: OPPM POD accepts this recommendation. POD will establish
an Acquisition Operating Procedure to address the reassignment of solicitations and
contracts.
Target Completion Date: July 31, 2014


Recommendation 11
The CO needs to inform all parties that correspondence or discussions regarding task
order changes/disputes/lack of performance are the sole responsibility of the CO.
Agency response: OPPM POD accepts this recommendation. The Contracting
Officer assigned to the contract will issue a letter to the Contracting Officer
Representative and the Contractor reiterating that the Contracting Officer has the sole
authority to obligate the government by awarding and modifying contracts.
Target Completion Date: April 30, 2014


Recommendation 12
OPPM and OCIO need to research and, if applicable, seek reimbursement for
unimplemented contract services that USDA is paying for, but AT&T has not
provided.
Agency Response: OPPM POD and OCIO ENS accept this recommendation. ENS
will work with POD to research and if applicable, seek reimbursements for
unimplemented contract services.
Target Completion Dates: September 30, 2014


Recommendation 13
OPPM should require AT&T to meet its contractual obligations and establish
timeframes for AT&T to be in compliance with the terms of the Telecomm task order
or take appropriate action if requirements are not met in a timely manner.
Agency Response: OPPM POD accepts this recommendation. The Contracting
Officer and Contracting Officer Representative will complete a contract compliance
review and identify those contract requirements that are currently not being




AN EQUAL OPPORTUNITY EMPLOYER
performed. The Contracting Officer will notify the Contractor of any non-compliance
and request a corrective action plan.
Target Completion Date: October 31, 2014


Recommendation 14
OCIO needs to update the telecommunication mission area control officer’s
(TMACO) job description in accordance with Departmental Regulations. The
position’s responsibilities and required knowledge should include an understanding of
financial management and billing processes. In addition, ensure the official
responsible for this function has the training necessary, so they can adequately
perform billing reconciliations.
Agency Response: OCIO ENS accepts this recommendation. ENS will update the
TMACO job description in accordance with Departmental Regulation. ENS will
ensure the TMACO receives appropriate training to support performance of assigned
financial management and billing reconciliation duties. ENS will provide artifacts to
support completion of this recommendation.
Target Completion Date: December 31, 2014


Recommendation 15
OCIO needs to establish procedures requiring that the UTN bills be reviewed and
reconciled monthly. A manager needs to review the monthly billing reconciliations
for accuracy and then initial and date them to ensure and indicate that the bills are
accurate and reviewed timely.
Agency Response: OCIO ENS accepts this recommendation.
      Currently, ENS performs a manual reconciliation of monthly billing including
       validation of charges against ATQs to ensure correctness of new services
       ordered and received. A manager will review the monthly billing reconciliation
       for accuracy, sign and date to signify acceptance, and record results in a
       tracking log. The documented procedures will be updated to reflect the revised
       process.
       Target Completion Date: June 30, 2014
      ENS has contracted with a third-party vendor to design and develop the
       Telecommunications Expense Management (TEM) system to automate expense
       management processes for USDA. Phase I includes reporting and an executive
       dashboard that support manual billing reconciliation; Phase II will include
       automated validation of ATQs against billed services to streamline the
       reconciliation process. When the TEM system is deployed, the documented
       procedures will be updated to reflect the new processes. Management review
       and approval will continue to be a part of the monthly reconciliation procedure
       for the new TEM system.
       Target Completion Dates: Phase I, July 31/Phase II, December 31, 2014




AN EQUAL OPPORTUNITY EMPLOYER
Recommendation 16
OCIO needs to require that all billing disputes are submitted in accordance with the
terms of the Networx contract.
Agency Response: OCIO ENS accepts this recommendation. ENS will implement
an internal policy directing that all disputes be filed in the Business Direct portal.
ENS will provide artifacts to support completion of this recommendation.
Target Completion Date: June 30, 2014


Recommendation 17
OCIO needs to submit a billing dispute to Business Direct for the $1,916,667.88 in
billing errors that were discovered by AT&T in 2012, so that this transaction is
tracked.
Agency Response: OCIO ENS accepts this recommendation. In 2012, ENS
submitted a request for AT&T to investigate the overbilling of DMRC CLINs at
multiple locations; since the request was submitted by email, a single dispute ticket
was not generated. When adjustments were processed (9/1/12 bill), approximately
950 dispute numbers were generated for the individual CLINs/locations. ENS will
provide list of the dispute numbers related to the $1,916,667.88 net adjustment to
support completion of this recommendation.
Target Completion Date: June 30, 2014


Recommendation 18
OCIO needs to confirm reimbursements were received for the $89,719.58 in
overcharges.
Agency Response: OCIO ENS accepts this recommendation. ENS confirmed receipt
of adjustments for $89,719.58 overcharges and will provide artifacts to support
completion of this recommendation. The documented billing review process includes
tracking of billing disputes from filing in Business Direct through verification of
adjustment as part of the monthly billing reconciliation and management validation.
Target Completion Date: June 30, 2014


Recommendation 19
OCIO needs to develop and implement a periodic supervisory review process to
monitor system outages and ensure that any appropriate credit requests are submitted
to AT&T. Requested credits should be tracked to determine whether they have been
reimbursed.
Agency Response: OCIO ENS accepts this recommendation. ENS will provide
artifacts to demonstrate the established process for reviewing monthly AT&T SLA
reports. The documented SLA review process includes tracking of SLA Credit
requests from filing through verification of adjustments as part of the monthly billing
reconciliation and management validation.



AN EQUAL OPPORTUNITY EMPLOYER
Target Completion Date: June 30, 2014


Recommendation 20
OCIO needs to confirm reimbursements were received for the $42,968 system outage
credits identified.
Agency Response: OCIO ENS accepts this recommendation. ENS confirmed
receipt of all eligible credit adjustments and will provide artifacts to demonstrate
completion of this recommendation. The documented SLA review process includes
tracking of SLA Credit requests from filing through verification of adjustments as
part of the monthly billing reconciliation and management validation.
Target Completion Date: June 30, 2014


Recommendation 21
OCIO needs to request that AT&T provide a detailed statement that includes
information for each of the individual credits in any lump sum payment.
Agency Response: OCIO ENS accepts this recommendation. ENS will provide
sample reports from Business Direct that show a detailed break-down of the credit
adjustments, along with their associated CLINs and billing periods, as artifacts to
support completion. The documented billing review and SLA review processes
includes tracking of billing disputes and SLA credit requests from filing through
verification of adjustments as part of the monthly billing reconciliation and
management validation
Target Completion Date: June 30, 2014

cc:       Lisa Wilusz, Director, OPPM
          Jane Bannon, Program Manager, OIG
          John Donovan, Associate Chief Information Officer, ENS/OCIO
          Vernelle Archer, Director, TMG/ENS/OCIO
          Daniel Crosson, Director, AEO/ENS/OCIO
          Christopher Wren, OCIO Audit Liaison
          Lennetta Elias, OPPM Audit Liaison




AN EQUAL OPPORTUNITY EMPLOYER
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
